SUPREME COURT OF THE UNITED STATES

NILES O'NEIL,
Petitioner,
-against!

UNITED STATES OF AI\{ERICA,
Respondent.

PETITION FOR A WBIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

By:

ANDREW H. FREIFELD, ESQ.
Post Office Box 3196
New York, New York 10008
TeL 917-553-6030

Attorney for Petitioner
Niles O'Neil

e/

ISSUES PRESENTED

I.

Whether the Court of Appeals
Commission acted within its
Sentencing Guidelines $ 48t.2,
oocontrolled
substance offense"
offenses?

U.

Whether the Court of Appeals erred in holding that the definition of
"controlled substance offense" set out atUSSG $4b1 .2(b) is unambiguous?
If so, then judicial deference to the Commission's interpretation that the
language includes inchoate offenses is unwarranted pursuant to Kisor v.
Wilkie,588 US
S. Ct. 2400 (2019).

erred in holding that the U.S. Sentencing
authority by its commentary to $ U.S.
which broadened the detailed definition of
set out at $ 4B1.2(b) to include inchoate

_,139

a;'

TABLE OF CONTENTS
Page

'l

INTRODUCTION
COMPLIANCE WITH CERTAIN SUPREME COURT RULES

2

STATEMENT OF FACTS....

J

ARGUMENT

4

I.

THE COURT SHOULD GRANT CERTIORAM
ON THE FIRST PROPOSED ISSUE

II.

THE COURT SHOULD GRANT CERTIORARI
ON THE SECOND PROPOSED ISSUE...

7

t

10

CONCLUSION

APPENDIX
Exhibit A

,

Exhibit B
Exhibit C
Exhibit D
Exhihit.F

Second Circuit Order of summary affirmance,
entered November 24, 2O2O
Sentencing transcript, January 8, 2020
District court judgment, entered January 9,2020
Second Circuit mandate, entered December 15,2020
Second Circuit order assigning undersigned as counsel
pursuant to the CJA, entered January 20,2020.

TABLE OF AUTHORITIES
Page

4-7
4-7
4-7
4-7
4-7

Page

Cases

Auer v. Robbins,5l9 US 452

(1997)

Decker v. Northwest Environmental
Defense Center,568 US 597
Kisor v. Wilkie,588

US

8, 9

(2013)
(2}lg)......

139 S. Ct. 2400

TalkAmerica, Inc. v. Michigan Bell
Telephone Co.,564 U.S.50

8

2019).

7

United States v.,Crum,g34F.3d72} (9ft Cir.
g27

7-g

(2011).. ....:...

United States v. Adoms,g34F.3d720 (2tr Cir.

urrttedstatei'i.'I{avis,

8

2019).

F.3d382,385-8716thCir.

(lnitedStatesy. Tabb,g4gF.3dSl (2d

2}lg)..

Cir.2020)

United States v. Winstead,890 F. 3d 1082 (DC Cir.

11

2018).

7

6

I
6

INTRODUCTION
The undersigned is counsel to petitioner Niles O'Neil, appointed pursuant to the Criminal
Justice Act, by order of the United States Court of Appeals for the Second Circuit, on January 30,

2020, in United States v. Niles O'Neil, # 20-217 (2d Cir.). Reyes hereby petitions the Supreme

Court of the United States for a writ of certiorari to the Second Circuit, as to its order entered in
o'Summary Affirmance"), which
the case onNovemb er24,2020 (Appendix hereto, Exhibit A) (the

summarily affrrmed a judgment of conviction and sentence entered January 9, 2020 against
petitioner in the United States District Court for the Northem District of New York.
The issues presented here are identical ,o

,1.

issues in the pending petition for certiorari

in Zimmian Tabb v. tJnited State,y, Docket # 2O-\7g (SCOTUS), also from the Second Circuit. In
fact, the Second Circuit in the Summary Affirmance here cites to [Jnited States v. Tabb,949 F.3d
81 (2d Cir. 2020), the subject of Tabb's petition, as one of its decisions that foreclose O'Neil's
appeal and warrant sunmary affirmance. A week ago, on February 15,2021, the United States

filed its brief here in opposition to Tabb's petition.

'

In

TAbb, there was

full briefing before the Second Circuit. Here, unlike

there'; the

government, in response to O'Neil's merits brief on appeal, in lieu of an opposition brief, moved

for summary affirmance instead; O'Neil opposed. The government filed no reply, followed by
entry of the Summary Affirmance granting the motion.

Contrary to the Second Circuit's suggestion in the Summary Affirmance that O'Neil
briefed a single issue, O'Neil in faet briefed the following two issues (they are cut from his brief
and pasted here), the same two that Tabb briefed at the Second Circuit (for all practical purposes),
and the same two for which he seeks a

writ of certiorarl (for all practical purposes):

I.,. i Whether this Court should ovemrle United States v. Jaclcson,60 F. 3d 128 (2d Cir.
1995), United States v. Tabb,949 F.3d

8l (2d Cir.2020) and United States v.

Richardson, No. 19-412-cr (2d Cir.2020), which all held that the U.S. Sentencing
Commission acted within its authority by its commentary to $ U.S. Sentencing
Guidelines $ 481.2, which broadened the detailed definition of 'ocontrolled substance
offense" set out at $ 4B1.2(b) to include inchoate offenses?

II.

Whether the definition of oocontrolled substance offense" set out at USSG $abl.2(b) is
unambiguous, rendering judicial deference to the Commission's interpretation that the
language includes inchoate offenses unwarranted pursuant to Kisor v. Wilkie,588 US
S. Ct.2400 (2019)?

_,139

Indeed, in its motion for summary affirmance at the Second Circuit, the government acknowledged

that O'Neil raised these two issues, and argued for summary affirmance on both.
The petition should be granted based on an intractable split among the Circuits on the first
issue, one which frequently arises at sentencing. Moreover,

if the second

issue is answered yes,

then the split in the Circuits that underlies the frrst issue is moot. The importance of both issues
thus cannot be overemphasized. Cases, including this one and Tabb, contain identical and simple

fact patterns for purposes of teeing these important issues up for this Court's consideration. We
respectfully submit that this case is as worthy as another for this Court to decide these commonlyseen issues of constitutional dimension.

COMPLIANCE WITH CERTAIN SUPREME COURT RULES
These exhibits,

all from this

case and attached hereto, comprise the appendix

petition:

Exhibit A
Exhibit
Exhibit
Exhibit
Exhibit

B
C

D
E

Second Circuit Order of summary affirmance,
entered November 24, 2020
Sentencing transcript, January 8, 2020
District court judgment, entered January 9, 2020
Second Circuit mandate, entered December 15,2020
Second Circuit order assigning undersigned as counsel

pursuant to the CJA, intered January 20,2020.

to this

Supreme Court Rule

10:

The petition should be granted because of the split in the

Circuits and because district courts are confronted regularly with the issues presented by the simple
fact-pattern that underlies the petition.

Rule 14.1(b): The caption of this case contains the names of all the parties to the
proceeding in the court whose judgment is sought to be reviewed. The nisi prius court was the

United States District Court for the Northern District of New York, where the action proceeded
under the caption United States

v.

Niles O'Neil, docket

# 19-cr-00163-GTS-1. A judgment of

conviction and sentence entered there January g,2020. (Exhibit C hereto) By order of the United
States Court of Appeals for the Second Circuit, entered November 24,2020,under United States

v.

Niles

O'Neil, Docket # 20-217 ,the judgmentLs summarily affirmed. (Exhibit A hereto)
Rule 14.1(d): There are no reported opinions in the case.
Rule 14.1(e): ThedateofthejudgmentaboutwhichweseekreviewisNovember24,2020.

Section 1254(l) of Title 28 of the United States Code confers jurisdiction on this Court to review
the order for which we seek review on a writ of certiorari.

'

Rule'

14.1(fl: The provisions of law involved in this case are in the United States

Sentencing Guidelines, specifically, USSG $$ aBl.1(a),481.2(b), and Application Note 1 to

$

481.2.

Rule 14.1(g): Jurisdiction in the Court of Appeals to review the order for which we seek a

writ of certiorari vested under 28 USC $ 1291.
STATEMENT OF FACTS
The case commenced by complaint filed

April4, 2018 in the United

States District Court

for thl Ngrthem District of New York,, charging that on April 3,2018 at approximately 2:01 p.m.,

at

122

Brinkerhoff Street, Apartment 201, Plattsburgh, New York, members of law enforcement

found O'Neil present and in possession of approximately 42 grams of crack-cocaine. On May 9,
2019, with no plea agreement, O'Neil pled guilty to an information charging possession with intent

to distribute 28 grams or more of cocaine base in violation of

2l

USC $$ 841(a)(1) and

841(b)(1XB). The plea subjected O'Neil to a mandatory minimum term of imprisonment of five
years and a maximum term of imprisonment of forty years.

The Pre-Sentence Report (the "PSR") dated September 26,20lg.states O'Neil is 28 years
old, bom in New York. It charges that that O'Neil has a total of two prior felony convictions, both

underNew York law, for Attempted Robbery inthe Second Degree INYS Penal Law $ 160.10(l)]
and Attempted Criminal Possession Of a Controlled Substance in the Third Degree INYS Penal

Law $ 1101220.16(1)1, based on arrests in 2010111 at age

19.

As to O'Neil's sentencing range under the U.S. Sentencing Guidelines, the PSR

puts

O'Neil's adjusted offense level at 24,based on a base offense level at 24, because the offense of
conviction involves more than 28 grams but less than 112 grams of crack-cocaine [USSG

$

2D1.1(c)(8)1, with no specific offense characteristics or other adjustments warranted. Further,

O'Neil is in''Criminal History Category ("CHC") IV, based on seven criminal history pbints,
arising from the two felony convictions and a petit larceny conviction at age

O'Neil's two prior felony convictions, the PSR
$

21.

However,

asserts, render him a career offender under USSG

481.1, making his offense level 34, because his maximum exposure is 25 years or more [USSG

$ 4B1.1(bX2)l and put him into a CHC
acceptance of responsibility TUSSG $

VI.

3El.l(a),

O'Neil warrants a reduction of three-levels for
(b)1, leaving

O'Neil with a final offense level of

31 and a CHC VI, putting O'Neil's Guidelines range at 188-235 months.

In his sentencing submission, O'Neil maintains that his conviction for Auempted Criminal
Possession of A'Controlled Substance in the Third Degree cannot serve as a predicate for a career

offender determination under $ aB1.l(a), because the U.S. Sentencing Commission lacked the
authority to promulgate ApplicationNote

1

to USSG $ 4B1.2(b), which alone renders an attempted

controlled substance offense available for the purpose. Accordingly, O'Neil maintains that his
sentencing range

is 57-71months,

based on a final offense level of 21 in a CHC

a sentence of 60-months, the statutory

IV, and asks for

minimum. The government agrees with the PSR and

asks

for a Guidelines ' sentence. On January 8,2020, the district court adopted the recommendations
of the PSR, determined that O'Neil's Guidelines' range is 188-135 months, and imposed sentence,
: a term of imprisonment

of

120 months, followed by a term of supervised release for four years,

no fine and a $100 special assessment. (Exhibit B hereto) Judgment entered January g,2020.

(Exhibit C hereto) O'Neil filed his notice of apireal January 17,2020.
The undersigned's first association with the case was upon the January 30,2020 entry by
the Second Circuit of an order appointing him as CJA counsel. (Exhibit E hereto) )

ARGUMENT
I.

THE COURT SHOULD GRANT CERTIORAzu

The Court should grant certiorari on this issue:

Whether the Court of Appeals erred in holding that the U.S. Sentencing
Commission acted within its authority by its commentary to U.S. Sentencing
Guidelines $ 4B1.2, which broadened the detailed definition of "controlled
substance offense" set out at $ 4B1.2(b) to include inchoate offenses?
Pursuant

to $ 4B1.1(a) of the United

States Sentencing Guidelines ("USSG" or the

"Guidelines"), a current or prior conviction for a "controlled substance offense", when combined

with other factors, renders a person a career offender under the Guidelines. The definition of
"controlled substance offense" for purposes of $ 4B I . 1(a), set out at USSG $ 48 1 .2(b), provides:

The term "controlled substance offense" means an offense under federal or state
law, punishable by imprisonment for a term exceeding one year, that prohibits the
manufacture. import. export. distribution. or dispensing of a controlled substance
(or a counterfeit substance) or the possession of a controlled substance (or a
counterfeit substance) with intent to manufacture, import, export, distribute, or
dispense.

(emphasis added) The definition does not include inchoate controlled substance offenses.
However, the U.S. Sentencing Commission (the "Commission") added inchoate offenses to the
definition by way of its commentary to $ 4B1.2 at ApplicationNote l,viz.: "[C]ontrolled substance
offense' include(s) the offenses of aiding and abetting, conspiring, and attempting to commit such

offenses" (hereinafter "Application Note l ").

ln Stinson v. United States,508 US 36,.38'(1993) this Court instructed that courts must
deem the Commission's interpretation or explanation of a Guideline as "authoritative unless it
violates the Constitution or a federal statute, or is inconsistent with, or a plainly eroneous reading,

of that guideline".
The Circuit Courts of Appeals are split on the issue of whether Application Note 1, by
adding inchoate offenses, "is, inconsistent with, or a plainly erroneous reading" of $ 4b1 .2(b)',
1l

with the result, of course, that whether a defendant is deemed a career offender depends on the
situs of her conviction.

These following cases hold that Application Note

I is a'not valid exercise of the

Commission's authority: United States v. Winstead,890 F. 3d 1082 (DC Cir. 2018) and Unrted
States v. Havis, 927 F. 3d 382,385-87 16th

Court determined that Application Note

I

Cir. 2019) (en banc) (per curiam). ln Winstead, the

was "inconsistent with, or a plainly eroneous reading"

of USSG $ 48 1.2(b) under Stinson. ln Havis, the Court never got to the Stinson issue, determining
that the Commission had no power to issue Application Note

6

I

at all.

We have noted that the Second Circuit held here and in Tabb to the contrary. So did these
Courts of Appeals: United States v. Adams,934F.3d72017th Cir. 2019); United States v. Crum,

934F.3d720

(9th

Cir. 2019).

For these reasons, the petition for certiorori should be granted as to the issue proposed
under this heading.

II.
THE COURT SHOULD GRANT CERTIORARI
ON THE SECOND PROPOSED ISSUE
The Court should grant certiorari onthis issue:

Whether the Court of Appealr
in holding that the definition of
"rr"-d
"controlled substance offense" set out at USSG $4b1.2(b) is unambiguous?
If so, then judicial deference to the Commission's interpretation that the
language includes inchoate offenses is unwarranted pursuant to Kisor v.
Wilkie,588 US
,139 S. Ct.2400 (2019).

In Kisor v. Wilkie,588 US

S. Ct.2400 (2019) the Court held that

the Auer

-,139
doctrine fAuer v. Robbins,519 US 452
(1997)1, whereby a court "defer[s] to agencies' reasonable
reddings

of genuinely ambiguous regulations", id. at 2408, "can arise only if a regulation is

genuinely ambiguous. And when we use that term, we mean
a court has resorted

it-

genuinely ambiguous, even after

to all the standard tools of interpretation". 139 S.Ct. at2414.

The Kisor Court admittedly thus "cabined [the] scope" of Auer deference along these and
other lines. We maintain that the decision thereby vitiated Stinsonv. United States,508 US 36, 38

(1993), such that its viability is now an open question, 1.e., whether the directive

in Stinsonthat

the Commission's interpretations of the Guidelines is owed deference survives Kisor..

The first crack in the firmly-embedded jurisprudential principle that the Auer deference
doctrinb 'used to be, appeared

in a 2011 concurring opinion by Justice Scalia, author of the

unanimous 1997 Auer opinion. His Honor stated:

"It is comforting to know that I would

reach

the Court's result even without Auer. For while I have in the past uncritically accepted that rule,

I

have become increasingly doubtful

of its validity." Talk Americ.a, Inc. v. Michigan Bell

Telephone Co.,564 U.S. 50, 67 (2011) (Scalia, J., concurring). In 2013 Judge Scalia jumped ship:

For decades, and for no good reason, we have been giving agencies the authority
to say what their rules mean, under the harmless-sounding banner of defer[ring]
to an agency's interpretation of its own regulations.
Decker v. Northwest Environmental Defense Center,568 US 597,616 (2013) (dissenting opinion),

Invoking separation of powers principles, the Justice said "enough is enough":
Making regulatory progftrms effective is the purpo se of rulemaking,in which the
agency uses its "special expertise" to (orniulate the best rule. But the purpose of
interpretation is to determine the fair meaning of the rule--to "say what the law
is," Marburyv. Madison,5 U.S. 137 |(1803).
,1.

*:1. r.

[H]owever great may be the efficiency gains derived from Auer deference,
beneficial effect cannot justifu a rule that not only has no principled basis but
contravenes one of the great rules of separation of powers: He who writes a law
must not adjudge its violation.
568 U.S. at618',622.

Kisor presented one issue: whether to ovemrle Auer. The single concurrenceinTalk Radio
grew into a 5-4 vote upon disposition in Kisor, where while the Supreme Court upheld the rule, it

left it too on life support. Indeed, Chief Justice Roberts's opinion concurring in part made clear
that the only principle that kept Auer alive to him was stare decisrs,' indeed, he declined to

join the

plurality in explaining the (albeit) limited benefits of Auer. And Judge Gorsuch in dissent observed
that today's decision is merely a "stay of execution", which transforms "Auer into a paper tiger"

in any event.

'

Much of the Kisor Court's circumscription of the scope of Auer deference is here:

First and foremost, a court should not afford Auer deference unless the regulation
is genuinely ambiguous. If uncertainty does not exist, there is no plausible reason
for deference. The regulation then just means what it means-and the court must
give it effect, as the court would any law....
*d.{.{.

regulation-then a court has no
business defening to any other reading, no matter how much the agency insists it

[I]f there is only

one reasonable construction of a

would make more sense. Deference in that circumstance would permit the agency,
under the guise of interpreting a regulation, to create de facto a new regulation.
139 S. Ct. at 2414 (citations and quotations omitted). But the Court noted other factors that
contributed to its decision, including its conclusion that no deference is warranted where the

agency's interpretation "does not reflect an agency's authoritative, expertise-based, fair, or
considerjudgment". Id. at2416. (citations and quotations marks omitted).
The issue presented is whether the language of

$

481.2(b) is unambiguous such that no

deference to the Commission's interpretation that the definition includes inchoate offenses is

warranted. The Guidelines bears repeating:

'

The term "controlled substance offense" means an offense under federal or state
law, punishable by imprisonment for a term exceeding one year, that prohibits the
mantifatture, import, export, distribution, or dispensing of a controlled substance
(or a counterfeit substance) or the possession of a controlled substance (or a
counterfeit substance) with intent to manufacture, import, export, distribute, or

lit'H:r,

that the definition is clear and unambiguous. Moreover, while the commission

may have some expertise in the implementation of the Guidelines warranting judicial deference,
the determination of which convictions warrant career offender status is surely not of them. That's
a legislative function no matter how its sized up.

For these reasons, the petition for certiorari should be granted as to the issue proposed
under this heading.

9

"!:1i!#

"
Fnr &ae reasms,

p€ffim

d

&r

coNctuffio}r

nan$ms

ed tis

Court reary dcem jus

ad 1mF,

OWeflls

sdt of orr*omi liltrmld1n Sr{rtd.

ftffi a

frffid; S,6fixc{r,x

il

Nen'Yorlq New Ysr&

er

fu-M
,

i-

n\

\

ffiwFxci&ld
FoniOffcqBffi

31.$6

IhFYsdqHeY€*

IO0ffi

(erO f;mtr3o
t

Atttrryforhtifiw
lrib* OTIdI

:

t; ii
I

,Rf

?

[:0.,
l

#

